TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Internal Revenue Service Needs to
                Enhance Its International Collection Efforts



                                     September 12, 2014

                             Reference Number: 2014-30-054




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                              Adequate policies, procedures, position
NEEDS TO ENHANCE ITS                                       descriptions, or the training needed to
INTERNATIONAL COLLECTION                                   ensure that international revenue officers
EFFORTS                                                    can properly work International Collection
                                                           cases.
                                                       
Highlights                                                 A specific inventory selection process that
                                                           ensures that the International Collection
                                                           cases with the highest risk are worked.
Final Report issued on
September 12, 2014                                        Performance measures and enforcement
                                                           results reported separately from Domestic
Highlights of Reference Number: 2014-30-054                Collection.
to the Internal Revenue Service Commissioner              A process to measure the value of the
for the Small Business/Self-Employed Division.             “Customs Hold” as an enforcement tool.
IMPACT ON TAXPAYERS                                    WHAT TIGTA RECOMMENDED
In today’s global economy, businesses and              TIGTA recommended that the IRS: 1) develop a
individuals are becoming more and more                 formal International Collection Strategic plan;
involved in international transactions. For U.S.       2) update International Collection guidance to
taxpayers, income received from these                  provide specific policies and procedures to
international transactions is subject to U.S. tax      international revenue officers; 3) evaluate and
rules and reporting requirements. Accordingly,         update the current international revenue officer
the role of an international revenue officer is        position descriptions; 4) develop a formal
very important in helping taxpayers comply with        International Collection training plan using
the tax laws and reducing international tax            Subject Matter Experts to develop and teach
noncompliance.                                         international specific courses; 5) evaluate the
WHY TIGTA DID THE AUDIT                                International Collection inventory selection
                                                       criteria; 6) develop separate performance
The IRS faces many unique challenges in                measures and track specific enforcement results
collecting taxes from international taxpayers.         for International Collection; and 7) continue to
Moreover, the IRS does not have reliable               pursue direct access to the Customs Hold
statistics on the rate of noncompliance of these       information.
taxpayers with their U.S. tax obligations. The
overall objective of this review was to evaluate       IRS officials agreed with all of TIGTA’s
the IRS’s collection efforts on delinquent             recommendations and have taken or plan to
taxpayers residing in foreign countries.               take corrective actions. However, while the IRS
                                                       has implemented some corrective actions to
WHAT TIGTA FOUND                                       improve the selection of international collection
                                                       inventory, develop separate performance
International tax noncompliance remains a              measures, and track enforcement results,
significant area of concern for the IRS.               TIGTA does not believe that the IRS’s
However, the IRS’s collection efforts need to be       completed corrective actions fully addressed the
enhanced to ensure that delinquent international       recommendations.
taxpayers become compliant with their U.S. tax
obligations.
TIGTA’s review found that the IRS has not
provided effective management oversight to
International Collection, which contributed to
several control weaknesses in the program. For
example, International Collection does not have:
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 12, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Needs to Enhance
                             Its International Collection Efforts (Audit # 201230038)

 This report presents the results of our review to evaluate the Internal Revenue Service’s (IRS)
 collection efforts on delinquent taxpayers residing in foreign countries. This review is included
 in our Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of
 Globalization.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).
                    The Internal Revenue Service Needs to Enhance Its International
                                          Collection Efforts




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          A Lack of Effective Management Oversight Has Affected
          Many Areas in International Collection ........................................................ Page 3
                    Recommendations 1 through 4:......................................... Page 8

          International Collection’s Inventory Selection Process May
          Not Ensure That the Most Productive Cases Are Worked ........................... Page 9
                    Recommendation 5:........................................................ Page 11

          Separate Performance Measures and Quantifiable Enforcement
          Results Are Needed to Determine the Success of International
          Collection Efforts .......................................................................................... Page 11
                    Recommendation 6:........................................................ Page 13

          The Value of the “Customs Hold” As an Enforcement
          Tool Has Not Been Assessed ........................................................................ Page 13
                    Recommendation 7:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Glossary of Terms ................................................................ Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 27
         The Internal Revenue Service Needs to Enhance Its International
                               Collection Efforts




                         Abbreviations

IRS                Internal Revenue Service
DHS                Department of Homeland Security
ENTITY             Entity Case Management System
SB/SE              Small Business/Self-Employed
TECS               Treasury Enforcement Communication System
                    The Internal Revenue Service Needs to Enhance Its International
                                          Collection Efforts




                                               Background

In today’s global economy, businesses and individuals are becoming more and more involved in
international transactions. For U.S. taxpayers, income received from these international
transactions is subject to U.S. tax rules and reporting requirements. For purposes of U.S.
taxation, international taxpayers can be grouped into four general categories:
      •    U.S. individual taxpayers and resident aliens1 working, living, or doing business abroad.
      •    U.S. corporations doing business abroad.
      •    Nonresident aliens working or doing business in the United States.
      •    Foreign corporations doing business in the United States.
Congress, the U.S. Department of the Treasury, and the Internal Revenue Service (IRS) have all
placed a strong emphasis on reducing international tax noncompliance.
The International Collection program (hereafter referred
to as International Collection) has been a part of the Small
Business/Self-Employed (SB/SE) Division’s Collection         Congress, the U.S. Department
                                                              of the Treasury, and the IRS
Field function since October 2006. The Collection Field         have all placed a strong
function’s mission is “to provide SB/SE taxpayers with           emphasis on reducing
top quality postfiling services by helping them understand international tax noncompliance.
and comply with all applicable tax laws and by applying
the tax laws with integrity and fairness.” This also
includes ensuring payment compliance of international taxpayers who are subject to U.S. tax
laws.
International revenue officers in International Collection are primarily responsible for collecting
delinquent taxes and tax returns of international taxpayers who are subject to U.S. tax and
reporting requirements. The current International Collection program has 39 international
revenue officers assigned to five international groups. Figure 1 shows the number of
international revenue officers assigned to the five international groups and the total dollar
amounts collected by them in Fiscal Years 2012 through 2014 (as of March 31, 2014).




1
    See Appendix IV for a glossary of terms.
                                                                                               Page 1
                   The Internal Revenue Service Needs to Enhance Its International
                                         Collection Efforts



             Figure 1: Comparison of the International Collection Staffing and
                 Dollars Collected During Fiscal Years 2012 Through 2014

                                                          Fiscal Year     Fiscal Year       Fiscal Year 
                                                             2012            2013              20142 
         Number of International Revenue Officers              44              40               39 

         Dollars Collected                               $53,674,372     $53,045,741       $22,217,561 
       Source: IRS International Territory Reports, Cumulative Data for Fiscal Years 2012 through 2014.

The IRS faces many unique challenges in collecting taxes from international taxpayers, such as
difficulities in locating taxpayers in a foreign country, complexity of international tax law and
tax treaty issues, language barriers, and the absence of international toll-free telephone services.
Moreover, the IRS does not have reliable statistics on the rate of noncompliance of these
taxpayers with their U.S. tax obligations. Accordingly, the role of an international revenue
officer is very important in helping taxpayers comply with the tax laws and in reducing
international tax noncompliance.
This review was performed in Collection offices in Norwalk, Connecticut; Lanham, Maryland;
Bethpage, New York; Buffalo, New York; New York, New York; Seattle, Washington; and the
IRS Headquarters in Washington, D.C., and used information obtained from Collection offices in
Miami, Florida; Honolulu, Hawaii; and Guaynabo, Puerto Rico, during the period
September 2012 through December 2013. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




2
    As of March 31, 2014.
                                                                                                           Page 2
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts




                                 Results of Review

International tax noncompliance remains a significant area of concern and focus for the IRS.
However, the IRS’s collection efforts need to be
enhanced to ensure that delinquent international
taxpayers become compliant with their U.S. tax
obligations. Our review found that the IRS has not
provided effective management oversight to
International Collection contributing to several control
weaknesses in the program. Most notably, International
Collection does not have:
   Adequate policies, procedures, position descriptions,
    or the training needed to ensure that international
    revenue officers can accurately work International Collection cases.
   A specific inventory selection process that ensures that the International Collection cases
    with the highest risk are worked.
   Performance measures and enforcement results reported separately from Domestic
    Collection.
   A process to measure the effectiveness of the Customs Hold as an enforcement tool.

A Lack of Effective Management Oversight Has Affected Many Areas
in International Collection
Collection Field function management developed an International Collection Strategy document
in June 2012 to support the international vision:
       To ensure payment compliance among all persons subject to U.S. tax laws and
       treaties through the fair and equitable application of these laws, as well as
       providing education to our customers to promote future compliance.
This strategy was reported as a Collection Field function prior year accomplishment in both the
IRS’s Fiscal Year 2013 and Fiscal Year 2014 Collection Program Letters. However, at the time
of our review, Collection Field function management had not allotted any resources to this
strategy, nor did we identify any specific actions that had been taken for its implementation.




                                                                                             Page 3
                    The Internal Revenue Service Needs to Enhance Its International
                                          Collection Efforts



A strategy is defined as a method or plan chosen to bring about a desired future, such as
achievement of a goal or solution to a problem. The International Collection Strategy document
meets this definition, but is too general in nature to be considered a strategic plan. It provides
little specificity regarding Collection Field function plans related to enacting the strategy and
does not contain key requirements of a strategic plan.
For example, it does not describe how the goals and                 An International Collection
objectives are to be achieved (including the operational         Strategy document was created,
processes, skills, technology, and resources required);            but it is not a strategic plan.
identify any external factors that could significantly
affect the achievement of the goals and objectives; or
describe program evaluations that will be used to establish or revise the goals and objectives. In
addition, the Collection Field function has set no milestones for meeting the goals and objectives
of the strategy. Despite Collection Field function management reporting this strategy as an
accomplishment in its Collection Program Letters, there appears to have been no urgency to
implement the International Collection Strategy since its creation in June 2012.
We believe that a significant factor preventing the successful implementation of this strategy is
the many managerial changes at the executive level in the International Collection program over
the last few years. Since September 2012, International Collection has been led by five different
Territory Managers and two different Area Directors, all with no previous International
Collection experience. On October 20, 2013, International Collection was officially moved
under a new Area Director as part of the overall Collection Field function realignment. Two of
the five Territory Managers were placed subsequent to the realignment. Without consistent
executive leadership, it is difficult to develop and implement any long-term improvement
strategies.
Subsequent to the completion of our fieldwork, a permanent Territory Manager with extensive
international experience was placed to lead the International Collection program. In addition,
Collection Field function management appointed an executive to be specifically responsible for
the development of an action plan addressing the key areas outlined in the International
Collection Strategy document along with working collaboratively with other IRS functions to
support its implementation. However, without establishing a formal strategic plan for
International Collection, the complex tax issues facing both the international revenue officer and
the international taxpayer may not be fully addressed.

Policies and procedures are insufficient for international revenue officers
There are limited policies and procedures provided specifically for international revenue officers.
The Internal Revenue Manual contains more than 6,000 pages of policies and procedures for
working collection cases. However, few pages were dedicated specifically to International
Collection issues. We interviewed a judgmental sample3 of 15 international revenue officers and

3
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 4
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



all five international group managers, many of which expressed frustration regarding the limited
policies and procedures available to them. The following specific concerns were raised:
      The available guidance on issues frequently encountered by international revenue officers
       is often difficult to find because it is scattered throughout the Collection Internal Revenue
       Manual.
      There were similar frustrations regarding International Collection policies and procedures
       provided on the SB/SE Division’s Collection intranet website.
      There is a lack of available job aids addressing international issues.
At the beginning of our review (September 2012), we found that many of the International
Collection policies and procedures in the Internal Revenue Manual had not been updated since
Calendar Year 2009. In addition, some of the international guidance on the SB/SE Division’s
Collection intranet website had not been updated since Calendar Year 2011, as well as some web
links were no longer active. However, during our review, International Collection management
began updating its Internal Revenue Manual guidance and most had been updated as of
January 2014. Management also added an Internal Revenue Manual section prescribing
procedures to handle certain adjustments required in many international revenue officer cases. In
addition, Collection management began updating the Collection intranet website as new
international procedures were finalized. The IRS informed us that the web links are now
monitored and updated regularly.
The complexity of International Collection cases requires specific guidance to address those
issues beyond the guidance provided to domestic revenue officers. Most IRS policies generally
do not account for the differences between international and domestic taxpayers. An example is
that the timeliness guidelines for working international cases are the same as for working
domestic cases. As a general rule, international cases are more complex than domestic cases
because they can involve treaty limitations on what an international revenue officer can and
cannot do in a foreign country to contact the taxpayers, obtain tax returns, and collect the taxes
due. Without sufficient policies and procedures, international revenue officers may not be
providing the international taxpayer with fair and equitable application of the tax laws.
There are also logistical challenges in contacting and collecting from an international taxpayer
that must be acknowledged. For example, international revenue officers have limited ability to
make telephone or field contact with international taxpayers due to time zone and language
differences. Therefore, they are often restricted to making the initial contact through registered
mail, subject to U.S. Postal regulations, which can delay delivery to the taxpayers.
The Internal Revenue Manual is primarily focused on domestic cases and does not provide
separate timeliness guidelines for international cases to account for these differences. The
amount of time given to international taxpayers to respond to the correspondence is the same as
for domestic taxpayers. More realistic time frames for correspondence with international


                                                                                             Page 5
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



taxpayers should be incorporated into the International Collection guidance in the Internal
Revenue Manual.

Position descriptions for international revenue officers are inadequate
A position description is a document that summarizes the specialized duties, activities, and
responsibilities of an employee’s job within the Government. The document describes the
position and establishes what types of work are expected of the employee. Our analysis of the
position description used for international revenue officers revealed that the duties and
responsibilities are the same as their domestic counterparts, even though the international
position requires additional topical specific knowledge and skills. The only differences in the
position descriptions for international revenue officers were additional wording identifying their
position as “Moderate Risk” and the requirement for a national security clearance for access to
secret and confidential information. In addition, the international position description does not
state that the position is for an international revenue officer and does not even use the word
“international” anywhere in the document.
International Collection is generally not recognized as a separate entity within the Collection
Field function even though international revenue officers require specific knowledge and skills to
address the significant issues facing international taxpayers. For example, international revenue
officers require knowledge in complex U.S. tax rules and reporting requirements that include any
tax treaties that are applicable to a taxpayer’s country of residence. They also have to be
knowledgeable of the differences in enforcement capabilities when dealing with an international
taxpayer. Inadequate position descriptions that do not describe the skill sets needed for
international revenue officers to successfully work a more complex inventory may not
adequately support the Collection Field function’s international initiatives, as well as ensure that
quality service is provided to international taxpayers.

Additional in-depth training is needed to ensure that international revenue
officers can accurately and timely resolve cases
The IRS must enforce the tax laws to ensure that U.S. taxpayers meet their tax obligations
regardless of where they may work or reside. In order for the IRS to meet this goal, it must
address the challenges of international tax administration by properly training its international
revenue officers to understand and work complex cross-border issues. Yet, the IRS has created
few training courses specifically for International Collection.
International Collection training is developed by the SB/SE Division’s Human Capital Officer in
partnership with the Collection Field function. Each year, Collection Field function management
sends out requests to the International Collection group managers to solicit ideas from field
personnel for new courses to be developed or requests to bring back courses which need to be
updated. Once the course subjects are chosen, international revenue officers are asked to
volunteer to develop and teach the courses. The training is taught by international revenue

                                                                                              Page 6
                  The Internal Revenue Service Needs to Enhance Its International
                                        Collection Efforts



officers, domestic revenue officers, Collection Policy personnel, or a combination of all three
depending on the particular subject matter.
In Fiscal Years 2010 and 2011, there was little International Collection training given to
international revenue officers.4 In Fiscal Year 2012, international revenue officers received
training on four topics: Adjustments and Penalties; Foreign Trusts and International Insolvency;
Offshore Collection Techniques; and Offshore Research and Resources. In Fiscal Year 2013,
international revenue officers received training on two additional topics: Individual Taxpayer
Identification Numbers and Qualified Intermediaries.
We reviewed the training materials for four of the six
                                                                   We found inaccuracies in
international training topics and found that they were not
                                                                    training topics because
always developed or taught by Subject Matter Experts. We          inexperienced international
found that some topics were developed by lower graded             revenue officers developed
and/or inexperienced international revenue officers who          some of the materials instead
volunteered to research, develop, and teach the topic.             of Subject Matter Experts.
Although we determined that IRS Counsel and SB/SE
Division Training personnel are responsible for reviewing
and approving the topics before they are provided to the international revenue officers,
inaccuracies were identified in two of the topics. For example, the Adjustments and Penalties
topic included incorrect information on where to send international adjustments to be processed,
which we were told caused significant delays to the resolution of hundreds of cases and may
have negatively impacted customer service to international taxpayers.
The approved International Strategy document states that timely training will be provided to
international revenue officers on topics that are unique to international casework. In addition,
the IRS Strategic Plan for Fiscal Years 2009 through 2013 states that the IRS must invest to meet
the challenges of international tax administration and train employees to identify and understand
issues in a complex and cross-border international environment. However, most of the
judgmental sample of 15 international revenue officers and five group managers interviewed
believed the training they received was insufficient in improving their skills and did not provide
them with an in-depth knowledge for resolving their cases. In addition, one Territory Manager
considered the centralized training approach of little value because the training was focused on
very basic information.
When training courses do not contain information specific to international revenue officers,
International Collection management customizes them. For example, all newly hired
international revenue officers receive the same basic domestic revenue officer training with
domestic revenue officers, followed by separate “international” training. According to some of
the judgmental sample of 15 international revenue officers we interviewed, there were instances


4
  In Fiscal Year 2011, the IRS provided approximately three hours of training to international revenue officers on
international topics.
                                                                                                             Page 7
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



when domestic revenue officers with no International Collection experience were provided as
On-the-Job-Trainers for the international portion of the training. According to the group
managers and internal revenue officers interviewed, this can be problematic because
international revenue officers are required to know international tax and treaty laws, which can
make determining the correct tax liability more difficult. In addition, some managers expressed
concern that the investigative tools available to international revenue officers are often limited,
and locating taxpayers living abroad can be more involved and time consuming than locating
domestic taxpayers. There are risks of inequitable treatment of international taxpayers and
violating tax treaties if the international revenue officers are not provided adequate training on
international issues.

Recommendations
The Commissioner, SB/SE Division, should:
Recommendation 1: Develop a formal International Collection Strategic Plan that includes
outcome-related strategic goals, a description of how the agency intends to achieve those goals,
and an action plan with a timeline for implementation.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       finalize the draft action plan that has been developed, incorporating the recommendations
       from this audit report, including actions, measurements, and a timeline.
Recommendation 2: Update the Internal Revenue Manual, International Collection intranet
website, and international revenue officer job aids to provide specific policies and procedures to
international revenue officers. Evaluate the complexities unique to working International
Collection cases and ensure that these guidelines account for the differences between
international and domestic cases.
       Management’s Response: The IRS agreed with this recommendation. The Internal
       Revenue Manual and the IRS’s International Collection intranet web page have been
       updated and are monitored regularly to ensure currency and to ensure that the differences
       between international and domestic cases are addressed.
Recommendation 3: Evaluate the current international revenue officer position descriptions
and modify them as appropriate to include the specific duties and responsibilities of the position.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       completed a review of the standard position descriptions for international revenue
       officers grades GS-11, GS-12, and GS-13 in June 2014. It will revise these position
       descriptions to incorporate changes to the knowledge and duties required to work
       international field collection cases that were recommended as a result of that review.
Recommendation 4: Develop a formal International Collection training plan that uses
Subject Matter Experts to develop and teach international specific courses.

                                                                                             Page 8
                  The Internal Revenue Service Needs to Enhance Its International
                                        Collection Efforts



         Management’s Response: The IRS agreed with this recommendation. The IRS will
         develop a formal International Collection training plan that uses cross-functional subject
         matter experts to develop and teach international specific courses.

International Collection’s Inventory Selection Process May Not
Ensure That the Most Productive Cases Are Worked
International Collection’s inventory practices for selecting international casework may not
ensure that international revenue officers receive the highest priority cases. The assignment of
inventory is a priority and is a key factor in determining workload needs and balancing resources
across the Collection Field function.
The Inventory Delivery System is a collection system that automates the grading and assignment
of cases received into the Collection Field function. The level of complexity, or grade of a case,
is based on an application of business rules programmed into the Inventory Delivery System and
applied systemically upon receipt of the casework. The Entity Case Management System
(ENTITY) receives data from the Inventory Delivery System and delivers the case inventory to
the field. Cases receive their risk level assignment in priority order with no distinction between
domestic and international cases.
Appropriately graded case inventory is based on the accuracy and relevance of the criteria used
to determine the risk levels of the cases in the Collection Queue. There are no separate criteria
for determining risks and grading international cases. International group managers pull the high
and medium-risk cases from the Collection Queue for their international revenue officers to
work. However, ENTITY does not take into account the affluence of the foreign country5 where
the taxpayer is currently living, nor does it determine whether the taxpayer had assets in the
United States before moving overseas. ENTITY looks only at the case as a Taxpayer Delinquent
Account or a Taxpayer Delinquency Investigation that has accompanying Information Returns
Processing documents that may or may not change the grading of the case or the risk level.
In November 2011, Collection Field function
management requested a research project to determine if
                                                                             Domestic criteria are used to
additional factors should be considered in prioritizing                       determine the risk level of
international work. Specifically, the project objective                     international cases, which can
was to determine whether the Inventory Delivery System                     cause the highest priority cases
business rules should continue to treat taxpayers with a                           to not be worked.
foreign address the same as taxpayers with a domestic
address. Management questioned whether these cases

5
  ENTITY does not consider the cost of living in a foreign country as a factor in determining the taxpayers’ ability to
pay their outstanding tax liabilities. For example, taxpayers who can afford to live in a country with a higher cost of
living may be in a better position to pay their tax debts than taxpayers who can afford to live only in a country with a
low cost of living.
                                                                                                               Page 9
                 The Internal Revenue Service Needs to Enhance Its International
                                       Collection Efforts



should have a higher priority because of the foreign component and what impact working them
would have on overall taxpayer compliance. However, during the course of the project, the
original project objective was changed to determining the key differences between Domestic and
International Collection inventory. As a result, there was no evaluation of the effectiveness of
prioritizing international case work using domestic criteria.
The research project6 was completed in May 2013 and provided outcomes that could assist the
Collection Field function to aggressively target areas of significant risk. The project report
stated that the research was exploratory in nature and that Collection Field function management
has the expertise to interpret the significance of the key findings and, therefore, no conclusions
or recommendations were provided. We believe that the Collection Field function should use the
results of this extensive research project to enhance their international case selection process.
Interviews with Collection Field function management and review of Collection accomplishment
reports indicate that productivity is currently measured primarily on whether employees
complied with procedural requirements and the number of cases they closed. The amount of
revenue collected does not appear to be taken into consideration when assessing whether or not
International Collection is successfully selecting the cases with the most collection potential.
According to International Collection group managers, they face a more difficult challenge in
identifying current and potentially collectible cases for assignment to their revenue officers.
Although monitoring compliance with procedural requirements is important, measures and
desired outcomes related to closing cases should also be aligned with Collection’s primary
mission of collecting revenue and making the best use of limited International Collection
resources.
According to the September Fiscal Year 2012 International Territory Report provided by
Collection Field function management, 3,451 (35.9 percent) of 9,612 Taxpayer Delinquent
Account modules were closed as Currently Not Collectible. Under the current prioritization
system, the three most frequent reasons for closing International Collection cases as Currently
Not Collectible are:
   The taxpayer could pay, but the IRS was unable to collect the liability because the taxpayer
    resides in a foreign country.
   The IRS was unable to locate the taxpayer or their assets.
   The IRS was unable to contact a taxpayer, and although the taxpayer’s address was known,
    there was no means to enforce collection.
Collection Field function management needs to ensure that their inventory selection process
identifies and selects international cases with the most collection potential for international
revenue officers to work. For example, enhancing case selection criteria by including the

6
 International Collection Profile, Small Business/Self-Employed Division Finance, Research, and Strategy, Project
FLT0154, May 2013.
                                                                                                        Page 10
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



international attributes of a case may help identify and remove cases with low collectability
potential from inventory allowing international revenue officers to work more productive cases.
The selection criteria should prioritize collecting revenue to help close the International Tax Gap
while also making the best use of the limited resources of International Collection.

Recommendation
Recommendation 5: The Commissioner, SB/SE Division, should evaluate the International
Collection inventory selection criteria to determine whether it ensures that the most productive
collection cases are being selected for assignment.
       Management’s Response: The IRS agreed with this recommendation. IRS
       management responded that they already update their inventory selection models
       regularly to ensure that they are selecting the most productive cases and that information
       from their international cases is already used when they update these models.
       Office of Audit Comment: While IRS management stated that they regularly update
       their inventory selection models and that the corrective actions for this recommendation
       are complete, no additional evidence was provided to support that international collection
       case results were specifically evaluated or that any international specific case selection
       models were updated. This is a concern considering that more than one-third of the
       International Collection program’s inventory is closed as Currently Not Collectible. We
       still believe that international collection case selection practices need to be reevaluated
       and adjustments made to inventory selection models to identify more productive cases by
       including international attributes in the selection criteria, better identification of taxpayers
       with the ability to pay, and taxpayers who can be located and subsequently contacted.

Separate Performance Measures and Quantifiable Enforcement
Results Are Needed to Determine the Success of International
Collection Efforts
Performance measures for International Collection are not reported separately from Domestic
Collection. The IRS combines Domestic, International, and Puerto Rico collection results when
reporting overall Collection Field function performance. According to Collection Field function
management, the IRS does not find it necessary to further break down collection results to
highlight International Collection statistics. The Area Director tracks the international inventory
using separate productivity reports that include the number of international revenue officers and
number of cases closed by their grade level. The Territory Manager and Area Director believed
these reports provided the key information needed to monitor the international program with the
focus primarily on the number of case closures.
The approved International Collection Strategy document states that international case
processing will be examined to improve case processing efficiencies for systemic (e.g.,
                                                                                              Page 11
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



ENTITY) and non-systemic cases. The non-systemic cases include Mutual Collection
Assistance Request cases, Continental Shelf cases, and Offshore Voluntary Disclosure Initiative
Program cases. These are not included as closures for International Collection because they are
not part of the inventory system. International revenue officers also work other collateral cases
including Qualified Intermediary cases. These cases are also non-systemic cases.
According to the International Collection Territory Manager, approximately 70 percent of the
international revenue officer’s time is spent working ENTITY cases and the other 30 percent is
spent on these non-systemic cases. When time is spent on non-systemic cases, the determination
of resources expended in direct casework is not accurate because non-systemic cases are
considered non-case related activities and reported as indirect time, overhead, or details.
Although the formal reporting of Collection performance measures has not broken out
International Collection statistics, in Fiscal Year 2012, Collection Field function management
created a new International Territory Report to provide certain International Collection statistics.
This report accounts for some of the non-systemic or “other” casework in International
Collection, and allows for reporting of selected results for international cases. However, the
International Territory Report does not provide specific international case statistics that are
related to existing Collection Field function performance measures.
Overall, Collection Field function performance measures address many operational statistics
covering dollars collected; the number and types of closures; enforcement actions such as liens,
levies, and seizures; age of inventory; and many other measures. However, in spite of using the
International Territory Report and other Collection reports, Collection Field function
management could not provide the following data specifically for international cases:
      Dollars collected from tax returns secured.
      Dollars collected from notices with international revenue officer assignments.
      The number of liens, levies, and seizures resulting from international revenue officer
       enforcement actions.
Performance measures provide a way to determine what has been accomplished and whether or
not an organization is meeting its stated goals and objectives. Without specific performance
measures for International Collection, the IRS cannot establish effective performance goals or
measure International Collection’s success in achieving them. In addition, the IRS cannot
address the challenges of international tax enforcement without having key International
Collection statistics.




                                                                                            Page 12
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



Recommendation
Recommendation 6: The Commissioner, SB/SE Division, should develop separate
performance measures and track the enforcement results for International Collection to
determine the success of its collection efforts.
       Management’s Response: The IRS agreed with this recommendation. Beginning in
       Fiscal Year 2014, the International Collection program developed measures for closures,
       efficiency, quality, and employee satisfaction. The IRS is also monitoring a variety of
       diagnostic indicators and may develop additional measures after programming relating to
       realignment of Collection is completed.
       Office of Audit Comment: IRS management’s response indicates that they consider
       the corrective actions for this recommendation to be completed. While IRS management
       stated that the International Collection program has developed measures for closures,
       efficiency, quality, and employee satisfaction as a result of the realignment of Field
       Collection in October 2013, we do not believe that the completed corrective actions fully
       address our recommendation. For example, no corrective actions were taken in relation
       to the lack of identifiable international collection tax enforcement results, or the IRS’s
       inability to track these results to determine the overall success of its international
       collection efforts. Therefore, we believe that the IRS should consider developing
       corporate level metrics to measure its international enforcement results, which would
       help to determine the success of its international collection efforts, as well as the
       accuracy of its international inventory selection models.

The Value of the “Customs Hold” As an Enforcement Tool Has Not
Been Assessed
International revenue officers can request that a Customs Hold be input into the Treasury
Enforcement Communication System (TECS) for delinquent taxpayers. Once the taxpayer is on
the TECS, the U.S. Department of Homeland Security (DHS) notifies the IRS whenever the
taxpayer travels into the United States. During our interviews with a judgmental sample of
15 international revenue officers and all five group managers, many identified the Customs Hold
as one of the most effective enforcement tools available to them in dealing with delinquent
international taxpayers. International revenue officers use information obtained through a
Customs Hold to attempt to contact the taxpayers while they are in the United States and/or
locate the taxpayers’ assets.
The TECS is a database maintained by the DHS and is used extensively by the law enforcement
community. Taxpayers are informed with a Letter 4106, Letter Advising Taxpayer of
Department of Homeland Security Notification, that an international revenue officer has taken
action to advise the DHS that the taxpayer has outstanding tax liabilities and that this may result
in an interview by a Customs and Border Protection Officer if the taxpayer attempts to enter the
                                                                                            Page 13
                The Internal Revenue Service Needs to Enhance Its International
                                      Collection Efforts



United States. There is a Memorandum of Understanding7 between the IRS and the DHS that
allows Customs and Border Protection Officers to stop delinquent taxpayers identified on the
TECS to collect their contact information of where they will be staying while in the United
States.
According to the TECS Coordinator, the international revenue officer must submit a completed
Form 6668, TECS Entry Request, to have a Customs Hold placed on a taxpayer. The form is
sent to the group manager for a signature and e-mailed to the TECS Coordinator. The TECS
Coordinator maintains a spreadsheet to document taxpayers added to or deleted from the TECS.
According to the spreadsheet, there are approximately 1,700 taxpayers on the TECS with
approximately $1.6 billion in delinquent tax assessments. This includes assessments of
approximately $1.1 billion solely owed by international taxpayers. The IRS keeps no record of
the dollars collected as a result of the Customs Holds and the subsequent interactions with the
delinquent taxpayer. As a result, the actual value of the Customs Hold as an enforcement tool is
unknown.

The TECS Coordinator does not have direct access to the system
The TECS Coordinator must submit all requests for taxpayers to be added to or deleted from the
TECS through the IRS’s Criminal Investigation. The TECS Coordinator is assigned to the
SB/SE Division’s Collection Field function Information Technology and Security office and
does not have direct access to the TECS. As a result, the TECS Coordinator cannot
independently verify that any requested actions related to the TECS have actually occurred,
which could cause:
    1. Taxpayers who have become compliant to be unnecessarily delayed by Customs and
       Border Protection Officers because they were not properly deleted from the TECS.
    2. The IRS to not obtain updated taxpayer contact information because the taxpayer was
       never input into the TECS.
There currently is no requirement for the TECS Coordinator to track what is input or deleted
from the TECS. The TECS Coordinator created a spreadsheet in an attempt to informally track
this information; however, it is not directly linked to the TECS. Although the TECS
Coordinator has requested direct access to the TECS and Collection Field function management
informed us they have been pursuing direct access, they are dependent on the DHS providing
access because the DHS owns the system. Without direct access to the TECS, there is no
assurance that information that has been input into the system is up to date and accurate.




7
  This Memorandum of Understanding was signed in June 1993 between the U.S. Customs Office (now DHS) and
the IRS’s Criminal Investigation.
                                                                                                 Page 14
              The Internal Revenue Service Needs to Enhance Its International
                                    Collection Efforts



Recommendation
Recommendation 7: The Commissioner, SB/SE Division, should continue to pursue direct
access for the TECS Coordinator to the TECS to maximize effectiveness and accountability for
the accuracy of information input to the system and implement a process to capture the Customs
Hold information necessary to measure the success of this enforcement tool.
       Management’s Response: The IRS agreed with this recommendation. The IRS is
       working with the DHS to secure direct access to the TECS for its TECS Coordinator.
       However, the TECS is a DHS system and the IRS needs the DHS’s agreement for the
       TECS Coordinator to have direct access to the system and the Customs Hold information
       it retains.
       Office of Audit Comment: While documentation was provided that shows the IRS is
       continuing to pursue direct access to the TECS for its TECS coordinator, no corrective
       actions were taken to implement a process to capture the Customs Hold information
       necessary to measure the successfulness of this enforcement tool. We believe that this
       needs to be accomplished, regardless of whether or not direct access to the TECS for the
       TECS coordinator is ultimately secured.




                                                                                        Page 15
                    The Internal Revenue Service Needs to Enhance Its International
                                          Collection Efforts



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s collection efforts on delinquent taxpayers
residing in foreign countries. To accomplish our objective, we:
I.         Determined whether policies and procedures were sufficient for revenue officers1 in the
           international collection groups.
           A. Interviewed the Area Director, Territory Managers, all five international group
              managers, and a judgmental sample2 of 15 international revenue officers to determine
              what guidance is provided to international revenue officers to meet international
              collection issues. The 15 international revenue officers were judgmentally selected
              from a population of 44 international revenue officers based on availability. We
              primarily used this method to minimize time during our site visitations.
           B. Obtained and reviewed the SB/SE Division’s directives, program letters, and policies
              to determine its role and responsibilities for identifying and addressing international
              collection issues.
           C. Obtained and reviewed IRS policies, guidance, and manuals for supporting the
              Collection Field function’s international initiatives.
           D. Compared and contrasted these results with guidance provided to the domestic
              revenue officers (i.e., amount of time given to make initial contact with the taxpayer,
              amount of time allowed before case becomes over-age, time requirements to close the
              case, assigned disposition of the case at closure).
II.        Determined whether international revenue officer training is adequate to ensure that the
           revenue officer is equipped to handle all challenges unique to international collection
           issues.
           A. Obtained and reviewed the position descriptions for revenue officers to determine
              whether International Collection issues are addressed.
           B. Obtained and reviewed training provided to domestic and international revenue
              officers.
           C. Compared the differences between the training topics provided to domestic and
              international revenue officers.


1
    See Appendix IV for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 16
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



III.   Determined whether the IRS is selecting the most productive International Collection
       cases.
       A. Interviewed the Area Director, Territory Managers, and the five international group
          managers to determine whether the Collection Field function maintains a viable
          inventory management system and how it is used to assign and monitor International
          Collection cases.
       B. Reviewed criteria and procedures developed by Collection Field function
          management for identifying International Collection cases, referring them to the
          International Collection units, and working them in the Collection Field function to
          ensure compliance with International Collection procedures.
       C. Reviewed International Territory Reports for Fiscal Years 2011 and 2012 to identify
          Currently Not Collectible case percentages. We also determined whether collection
          results are separated by international versus domestic cases.
       D. Performed an analysis of closed cases for Fiscal Years 2011 and 2012 on the
          Integrated Collection System to identify the closing codes used by international
          revenue officers for Currently Not Collectible cases.
       E. Reviewed the types of enforcement tools (e.g., liens, levies, seizures, Customs Holds)
          that are available to international revenue officers.
       F. Interviewed the Collection TECS Coordinator to determine the TECS Customs Hold
          procedures and identify how many taxpayers have been added to the TECS and the
          amount of the delinquent tax assessments.
IV.    Evaluated International Collection’s performance results for Fiscal Years 2010 through
       2012.
       A. Interviewed Collection Field function management to determine what performance
          measures are being used to evaluate the success of International Collection versus
          Domestic Collection and to determine how international cases are being tracked.
       B. Analyzed statistics on the Collection Activity Reports, Area Accomplishment
          Reports, and the Director Collection Reports to determine if these reports provide
          enough information for the Collection Field function to separate the performance
          measures for International Collection and Domestic Collection.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS policies, procedures,

                                                                                         Page 17
               The Internal Revenue Service Needs to Enhance Its International
                                     Collection Efforts



guidance, training, inventory selection, and performance measures pertaining to the IRS’s
collection efforts on delinquent taxpayers residing in foreign countries. To evaluate these
controls, we interviewed Collection Field function management and International Collection
management along with international revenue officers. We obtained and analyzed relevant
policies, procedures and guidance, and reports provided in regard to training, inventory selection,
and International Collection’s performance measures.




                                                                                           Page 18
              The Internal Revenue Service Needs to Enhance Its International
                                    Collection Efforts



                                                                             Appendix II

                 Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Alan Lund, Acting Director
Tina Parmer, Audit Manager
Nancy VanHouten, Lead Auditor
Carol Gerkens, Senior Auditor
Jeff Jones, Senior Auditor




                                                                                     Page 19
              The Internal Revenue Service Needs to Enhance Its International
                                    Collection Efforts



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Enterprise Collection Strategy SE:S:CS
Director, Field Collection SE:S:FC
Director, Collection Analytics, Automation, Inventory Selection, and Delivery SE:S:CS:CAISD
Director, Collection Policy SE:S:CS:CP
Director, Field Collection, North Atlantic Area SE:S:C:NA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 20
                The Internal Revenue Service Needs to Enhance Its International
                                      Collection Efforts



                                                                               Appendix IV

                             Glossary of Terms

            Term                                           Definition

Area Director                   The senior-level manager in the Collection Field function
                                chain of command (i.e., the Group Manager reports to the
                                Territory Manager, who reports to the Area Director).
Calendar Year                   A 12-consecutive-month period ending on the last day of
                                December.
Campus                          The data processing arm of the IRS. The campuses process
                                paper and electronic submissions, correct errors, and forward
                                data to the Computing Centers for analysis and posting to
                                taxpayer accounts.
Collection Activity Report      An automated report that provides managers timely and
                                reliable raw data to show results each month by program,
                                case type, location, etc.
Collection Field Function       An area within the IRS that is authorized to perform
                                collection tasks in a centralized manner. The objective of the
                                Collection Field function is to collect taxes through personal
                                contact whenever there is an outstanding balance due.
Collection Queue                An automated holding file for unassigned inventory of
                                delinquent cases for which the Collection Field function does
                                not have enough resources to immediately assign for contact.
Continental Shelf               Cases regarding foreign taxpayers engaged in activities
                                related to the exploration for, or exploitation of, natural
                                resources on the Outer Continental Shelf in the Gulf of
                                Mexico.
Criminal Investigation          Serves the American public by investigating potential
                                criminal violations of the Internal Revenue Code and related
                                financial crimes in a manner that fosters confidence in the tax
                                system and compliance with the law.
Currently Not Collectible       Tax accounts that are removed from active inventory after
                                the necessary steps in the collection process have been taken.

                                                                                         Page 21
              The Internal Revenue Service Needs to Enhance Its International
                                    Collection Efforts




              Term                                     Definition

Customs and Border            Officers who work for U.S. Customs and Border Protection,
Protection Officer            which is the largest enforcement agency within the DHS.
                              These officers ensure the Nation’s safety by screening
                              passengers and cargo.
Customs Hold                  A notification to the DHS that, according to the IRS records,
                              a taxpayer owes Federal taxes. If the taxpayer should return
                              to the United States or Commonwealth Territories and has
                              not yet paid the total amount due, he or she could be
                              interviewed by a Customs and Border Protection Officer at
                              the time of entry. The IRS will then be advised of the
                              taxpayer’s arrival and will be provided with information
                              enabling it to contact the taxpayer regarding payment of his
                              or her outstanding tax liability.
Director Collection Report    A report used by National Office Collection management
                              that measures Collection Field function results on a national
                              level.
Domestic Collection           Responsible for ensuring payment compliance among
                              domestic persons through the fair and equitable application
                              of these laws, as well as providing education to domestic
                              customers to promote future compliance.
Domestic Revenue Officer      An employee in the Collection Field function who attempts
                              to contact domestic taxpayers and resolve collection matters
                              that have not been resolved through notices sent by the IRS
                              campuses.
Entity Case Management        The ENTITY is a database displaying current Collection
System                        Field function and Advisory inventory. The ENTITY
                              application receives data from the Integrated Collection
                              System for open, closed, and return to Collection Queue
                              cases; the Delinquent Inventory Account List for Collection
                              Queue cases; and the Automated Lien System for lien
                              information.
Fiscal Year                   Any yearly accounting period, regardless of its relationship
                              to a calendar year. The Federal Government’s fiscal year
                              begins on October 1 and ends on September 30.



                                                                                    Page 22
              The Internal Revenue Service Needs to Enhance Its International
                                    Collection Efforts




             Term                                         Definition

Group Manager                   A first-level manager in the Collection Field function,
                                responsible for supervising revenue officers.
Individual Taxpayer             A nine-digit number issued by the IRS to individuals who are
Identification Number           required for U.S. tax purposes to have a Taxpayer
                                Identification Number but who do not have – and are not
                                eligible to obtain – a Social Security Number.
Information Return              A return that includes any form, statement, or schedule
                                required to be filed with the IRS with respect to any amount
                                from which tax is required to be deducted and withheld.
Integrated Collection System    Provides workload management, case assignment/tracking,
                                inventory control, case analysis tools, and management
                                information system capabilities to support the SB/SE
                                Division’s collection fieldwork.
Internal Revenue Manual         Contains the policies, procedures, instructions, guidelines,
                                and delegations of authority that direct the operation and
                                administration of the IRS. Topics include tax administration,
                                personnel and office management, and others.
International Collection        Responsible for ensuring payment compliance among all
                                persons subject to U.S. tax/laws and treaties through the fair
                                and equitable application of these laws, as well as providing
                                education to international customers to promote future
                                compliance.
International Revenue Officer   An employee in the Collection Field function who attempts
                                to contact international taxpayers and resolve collection
                                matters that have not been resolved through notices sent by
                                the IRS campuses.
International Tax Gap           The estimated difference between the amount of tax that
                                international taxpayers should pay and the amount that is
                                paid voluntarily and on time. Currently, there is no official
                                IRS International Tax Gap estimate.




                                                                                       Page 23
             The Internal Revenue Service Needs to Enhance Its International
                                   Collection Efforts




            Term                                            Definition

International Tax                There are three primary types of tax noncompliance:
Noncompliance                    (1) Underreporting of tax liabilities on tax returns.
                                 (2) Underpayment of taxes due from filed returns.
                                 (3) Nonfiling, which refers to the failure to file a required tax
                                 return altogether or on time.
                                 These types of tax noncompliance are mutual to both the
                                 international and domestic taxpayer.
International Territory Report   A report used by Headquarters Collection management
                                 which measures Collection Field function results for the
                                 International Territory.
Inventory Delivery System        An inventory delivery system used for collection cases. The
                                 system uses proven analytical scoring models and a business
                                 rules engine to route cases to the Automated Collection
                                 System, the Collection Queue, or direct field assignment.
Job Aid                          A job aid is a repository for information, processes, or
                                 perspectives that supports work and activity by directing,
                                 guiding, and enlightening performance.
Levy                             A method used by the IRS to collect outstanding taxes from
                                 sources such as bank accounts and wages.
Lien                             An encumbrance on property or rights to property as security
                                 for outstanding taxes.
Mutual Collection Assistance     In the context of this report, a request by a treaty partner for
Request                          the IRS to collect taxes owed them from individuals residing
                                 in the United States.
Nonresident Alien                An individual who is not a U.S. citizen or U.S. national who
                                 has not passed the green card test or the substantial presence
                                 test.




                                                                                          Page 24
             The Internal Revenue Service Needs to Enhance Its International
                                   Collection Efforts




             Term                                         Definition

Offshore Voluntary Disclosure   This program offers a civil settlement structure in which
Initiative Program              taxpayers pay an offshore penalty in lieu of a number of
                                other penalties that may be assessed in cases of offshore
                                noncompliance. Once taxpayers have been accepted into the
                                program, they work with a revenue agent who reviews up to
                                eight years of amended or original tax returns, and
                                information returns, as well as other information about their
                                offshore accounts.
Qualified Intermediary          An eligible person or entity (i.e., a foreign financial
                                institution, a foreign branch or office of a U.S. financial
                                institution, or any other entity acceptable to the IRS) which
                                enters into a Qualified Intermediary Agreement. The
                                Qualified Intermediary agrees to assume certain
                                documentation and withholding responsibilities in exchange
                                for simplified information reporting for its foreign account
                                holders.
Resident Alien                  An individual who has been admitted for permanent
                                residence in the United States and is entitled to all
                                deductions, exclusions, and credits under the same rules as a
                                U.S. citizen.
Revenue Officer                 Employee in the Collection Field function who attempts to
                                contact taxpayers and resolve collection matters that have not
                                been resolved through notices sent by the IRS campuses or
                                through telephone contact.
Seizure                         The taking of a taxpayer’s property to satisfy his or her
                                outstanding tax liability.
Subject Matter Expert           A person with bona fide expert knowledge about what it
                                takes to do a particular job. The goal of the Subject Matter
                                Expert is to facilitate and ensure uniformity and consistency
                                of each program area and to provide expert advice in the
                                program subject matter.
Tax Period                      Refers to each tax return filed by the taxpayer for a specific
                                period (year or quarter) during a calendar year for each type
                                of tax.



                                                                                       Page 25
                    The Internal Revenue Service Needs to Enhance Its International
                                          Collection Efforts




                  Term                                               Definition

Taxpayer Delinquency                       An unfiled tax return for a taxpayer. One Taxpayer
Investigation                              Delinquency Investigation exists for all tax periods.
Taxpayer Delinquent Account                A balance-due account of a taxpayer. A separate Taxpayer
                                           Delinquent Account exists for each delinquent tax period.
Territory Manager                          A second-level manager in the Collection Field function
                                           responsible for supervising group managers within a specific
                                           geographic Territory.
Treasury Enforcement                       An information-sharing platform that allows users to access
Communication System                       different databases. It is owned and managed by the DHS’s
                                           U.S. Customs and Border Protection component and is the
                                           principal system used by officers at the border to assist with
                                           screening and making determinations regarding admissibility
                                           of arriving persons.
U.S. Department of Homeland                A stand-alone, Cabinet-level department, created with
Security                                   Congress’ passage of the Homeland Security Act of 20021 in
                                           November 2002. Its mission includes preventing terrorism
                                           and enhancing security, managing the border, administering
                                           immigration laws, securing cyberspace, and ensuring disaster
                                           resilience.




1
    Pub. L. No. 107-296, 116 Stat. 2135.
                                                                                                   Page 26
   The Internal Revenue Service Needs to Enhance Its International
                         Collection Efforts



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 27
The Internal Revenue Service Needs to Enhance Its International
                      Collection Efforts




                                                         Page 28
The Internal Revenue Service Needs to Enhance Its International
                      Collection Efforts




                                                         Page 29
The Internal Revenue Service Needs to Enhance Its International
                      Collection Efforts




                                                         Page 30
The Internal Revenue Service Needs to Enhance Its International
                      Collection Efforts




                                                         Page 31
The Internal Revenue Service Needs to Enhance Its International
                      Collection Efforts




                                                         Page 32
